CASE No. 20-7551

IN THE SUPREME COURT OF THE UNITED STATES

DENNIS R. BOLZE,
Petitioner,
vs.
WARDEN, FCI COLEMAN/
STATE OFTENNESEE,
Respondent.

PETITIONER FOR REHEARING

Dennis R. Bolze, pro se
Reg. No. 14825-067
FCI Coleman Low,
P.O. 1031 Coleman,
FL 33521-1031

Page | 1

REASON FOR REHEARING
A STATE COURT OR A UNITED STATES COURT OF APPEALS HAS DECIDED AN
IMPORTANT QUESTION OF FEDERAL LAW IN A WAY THAT DIRECTLY
CONFLICTS WITH RELEVANT DECISIONS OF THIS COURT.
The Petitioner comes in a timely petition for rehearing and in good faith presents to the
Court the following.

Petitioner was indicted and prosecuted in state court. Petitioner was

completely deprived of his right of counsel and was required to proceed in self-representation
at both arraignment and at the entry of guilty plea in a Class E felony prosecution.

The State

Court did not inquiry to determine whether Petitioner wanted to precede pro se or was even
component to do so.

Petitioner did not execute a waiver of his right of counsel or his right against self­
incrimination at any time prior to or during the proceedings - as required by State of
Tennessee statute

i.e., Tenn. Code Ann. §8-14-206(a)-(b).

Under Federal law, the

requirement also flows directly from the Sixth and Fourteenth Amendment of the Constitution.

This outcome directly conflicts with relevant decisions of this Court where it has long
held that a felony criminal defendant has a right to the assistance of counsel for his defense.
Lafler v. Cooper, 566 U.S. 156, 165 (2012); Arizona v. Fulminate, 499 U.S. 279, 310 (1991); and
United States v. Cronic, 466 U.S. 648, 659 & n.25 (1984).
This Court has recognized a right of self-representation also exists - if - the defendant
knowingly and intelligently waives the right of counsel with "open eyes." Faretta v. California,

Page | 2

District of Tennessee affirmed.

The United States Court of Appeals for the Sixth Circuit

affirmed as well and denied rehearing en banc. See Appx.B-F.

However, relevant decisions of this Court directly conflict with the lower courts as it
relates to Federal law.

In the Supplement filed with the writ (and attached herein after being

retyped), it was stated that according to Coleman v. Thompson, 501 U.S. 722, 750-54 (1991)
accord Murray v. Carrier, 477 U.S. 478, 488 (1986), the "responsibility for the default" is
properly "imputed to the state" since the "Petitioner was forced to act pro se as a result of a
violation of the Petitioner's constitutional or statutory right of counsel or to retain counsel of
his choice." Supplement at n.5, 6, 7.

It was claimed, based on relevant decisions of this Court, that when "[t]he [state] court
allowed the petitioner to proceed pro se without first obtaining a legally required voluntary,
knowing, and intelligent waiver of the Petitioner's constitutional right or statutory right of
counsel" that "any resulting procedural default must to imputed to the state," Id. at n.8, 9, and
demonstrated that under these "extraordinary circumstances" in abandoning Federal law,
prejudice is presumed. Id. at 7, 8.

SUMMARY

Based on the factual demonstration above, and relevant decisions of this Court, the
lower courts decisions were in direct conflict with this Court.

Petitioner is imprisoned under a

conviction that his right of counsel was in fact completely deprived. The only avenue for relief

Page | 4

>

now comes before this Court to exercise its supervisory oversight because of the extraordinary
circumstances surrounding his imprisonment.

CONCLUSION

Petitioner prays for this Court to grant rehearing and based on the merits, remand back
to the lower court and allow the Petitioner to proceed accordingly or any other relief available
in law.

Z2

DATED: April 25, 2021

DennreRoger Bolze, pro se
Reg. No. 14825-067
FCI Coleman Low
P.O. Box 1031
Coleman, FL 33521-1031

COMPLIANCE WITH RULE 34

i

The total number of words contained in this Petition is 897 using Wqrdwithl3 font.

Dennis R. Bolze,
CERTIFICATE OF SERVICE
I Dennis R. Bolze, certify that a true and correct copy of the above styled petition has
been served on the Office of the Solicitor General of the United States at Room 5616, Dept, of
Justice, 950 Pennsylvania Avenue, N.W., Washington, DC 20530-0001 on this tl^ 25th day of
April 2021 by first-class postage attached.

Dennis R. Bolze

Page | 5

